U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

December 26, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Ravneet Singh v. United States, No. 19-572
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on October 28,
2019. The response of the United States is now due, after one extension, on January 2, 2020.
We respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to
and including January 27, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government's response have been heavily engaged with the press of
previously assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0572
SINGH, RAVNEER
USA

TODD W. BURNS
BURNS & COHAN
1350 COLUMBIA STREET
SUITE 600
SAN DIEGO, CA 92101
619-236-024
HAROLD J. KRENT
lIT CHICAGO-KENT COLLEGE OF LAW
565 WEST ADAMS STREET
CHICAGO, IL 60661
312-906-5010
HKRENT@KENTLAW.IIT.EDU

